APPENDIX

APPENDIX A:

Order and Amended Opinion,
No. 18-35789, Ninth Circuit
Court of Appeals, May 20, 2021 .... 1a

APPENDIX B:

Order Granting Defendant’s
Motion for Summary Judgment,
No. C17-0106 RSM, W.D. Wash.,
August 24, 2018 ............................. 48a

APPENDIX C:

Order Denying Plaintiff’s
Motion for Summary Judgment
Regarding Fourth Amendment
Violation, No. C17-0106RSM,
W.D. Wash., August 21, 2018 ...... 58a

1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ROBERT BOULE,
Plaintiff-Appellant,
v.
ERIK EGBERT; JANE DOE EGBERT,
and their marital community,
Defendants-Appellees.

No. 18-35789
D.C. No.
2:17-cv-00106RSM
ORDER AND
AMENDED
OPINION

Appeal from the United States District Court
for the Western District of Washington
Ricardo S. Martinez, Chief District Judge, Presiding
Argued and Submitted October 7, 2020
Seattle, Washington
Filed November 20, 2020
Amended May 20, 2021
Before: Susan P. Graber and William A. Fletcher,
Circuit Judges, and Nancy D. Freudenthal, * District
Judge.
The Honorable Nancy D. Freudenthal, United States District
Judge for the District of Wyoming, sitting by designation.
*

2a
Order;
Dissent to Order by Judge Bumatay;
Dissent to Order by Judge Owens;
Dissent to Order by Judge Bress;
Opinion by Judge W. Fletcher
SUMMARY **
Civil Rights
The panel amended its opinion filed on November 20,
2020, ordered the amended opinion to be filed
concurrently with the panel’s order, and denied a petition
for rehearing en banc after the matter failed to receive a
majority of the votes of the non-recused active judges in
favor of en banc consideration.
In the amended opinion, the panel reversed the district
court’s summary judgment for defendants in an action
brought pursuant to Bivens v. Six Unknown Named
Agents of Federal Bureau of Narcotics, 403 U.S. 388
(1971) by a United States citizen who alleged that a border
patrol agent, acting on plaintiff’s property within the
United States, violated plaintiff’s rights under the First
and Fourth Amendments.
Plaintiff owns, operates and lives in a bed and
breakfast in the state of Washington, on land which
touches the United States-Canada border. Plaintiff
alleged that a border patrol agent entered the driveway of
plaintiff’s property to question arriving guests; used
This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.
**

3a
excessive force against plaintiff, and then, in response to
plaintiff’s complaints, retaliated against plaintiff by,
among other things, contacting the Internal Revenue
Service, asking the agency to look into plaintiff’s tax
status. The district court granted summary judgment to
defendants on plaintiff’s Fourth and First Amendment
claims, holding that claims were impermissible extensions
of Bivens.
The panel held that Bivens remedies were available in
the circumstances of this case, where a United States
citizen claimed that a border patrol agent violated the
Fourth Amendment by using excessive force while
carrying out official duties within the United States and
violated the First Amendment by engaging in retaliation
for protected speech.
Addressing the Fourth Amendment claim, the panel
agreed with the district court that it presented an
extension of previous Bivens cases in that Agent Egbert
was an agent of the border patrol rather than of the F.B.I.
But it was a modest extension, in that border patrol and
F.B.I. agents are both federal law enforcement officials,
and in that plaintiff’s Fourth Amendment excessive force
claim was indistinguishable from Fourth Amendment
excessive force claims that are routinely brought under
Bivens against F.B.I. agents. The panel did not find that
special factors counseled hesitation such that a Bivens
action in this new context was foreclosed. Plaintiff, a
United States citizen, brought a conventional Fourth
Amendment excessive force claim arising out of actions by
a rank-and-file border patrol agent on plaintiff’s own
property in the United States. This context was a far cry
from the contexts in Ziglar v. Abbasi, 137 S. Ct. 1843, 1857
(2017), and Hernandez v. Mesa, 140 S. Ct. 735, 743 (2020),

4a
where the Supreme Court found that special factors
counseled against a Bivens action. The panel held that
any costs imposed by allowing a Bivens claim to proceed
were outweighed by compelling interests in favor of
protecting United States citizens on their own property in
the United States from unconstitutional activity by federal
agents.
Addressing the First Amendment claim, the panel
noted that although the Supreme Court wrote in Hartman
v. Moore, 547 U.S. 250 (2006), that Bivens extends to First
Amendment retaliation claims when federal law
enforcement officials have no innocent motives for their
action, the panel recognized that the Supreme Court has
not expressly so held. The panel therefore concluded that
plaintiff’s First Amendment retaliation claim arose in a
new context. However, the panel found no special factors
that made it inadvisable to find a cognizable Bivens claim.
The panel first noted that in Gibson v. United States, 781
F.2d 1334 (9th Cir. 1986), this court upheld a Bivens claim
against federal officers who sought to curb plaintiff’s
protected First Amendment speech. Second, although the
panel recognized that the Supreme Court declined to
recognize a Bivens action in Bush v. Lucas, 462 U.S. 367
(1983), that case involved a very different context, arising
out of an employment relationship that was governed by
comprehensive procedural and substantive provisions
giving meaningful remedies against the United States.
Third, there was even less reason to hesitate in extending
Bivens to plaintiff’s First Amendment retaliation claim
than there was to his Fourth Amendment excessive force
claim given that Agent Egbert was not carrying out his
official duties when he contacted the Internal Revenue
Service and other agencies asking for investigation of

5a
plaintiff.
The panel rejected the suggestion that plaintiff had
alternative remedies that would defeat a Bivens claim.
The panel first noted that in Carlson v. Green, 446 U.S. 14
(1980), the Supreme Court held that the existence of a
remedy under the Federal Torts Claim Act, 28 U.S.C.
§ 2680(h) did not foreclose a Bivens action. Second, a
state-law trespass claim against Agent Egbert in his
individual capacity was barred by the Westfall Act.
Finally, injunctive relief was an inadequate remedy, for
plaintiff was seeking damages rather than protection
against some future act.
Dissenting from the denial of rehearing en banc, Judge
Bumatay, joined by Judges Callahan, Ikuta, Bennett, R.
Nelson, Lee and VanDyke, stated that the court had
extended Bivens v. Six Unknown Named Agents of
Federal Bureau of Narcotics, 403 U.S. 388 (1971) to two
new contexts: one involving the First Amendment and
another involving the Fourth Amendment at the border.
By avoiding the Constitution’s limits on the judicial power,
the court had become an outlier among its fellow circuit
courts, established itself as a quasi-legislature and
improperly disregarded the Supreme Court’s precedents.
Judge Bumatay wrote that the court could not respond to
executive transgression of the Constitution with its own
judicial overreach; it was not within the power of federal
judges to create a cause of action for plaintiff, no matter
how convinced they were that he deserved one.
Dissenting from the denial of rehearing en banc, Judge
Owens, referring to a law review article he wrote in 1997,
John B. Owens, Note, Judge Baer and the Politics of the
Fourth Amendment: An Alternative to Bad Man
Jurisprudence, 8 Stan. L. & Pol’y Rev. 189 (1997)

6a
(pointing out the limitations of Bivens actions and setting
forth some admittedly pie in the sky solutions), stated that
he continues to believe that new legislation that permits
plaintiffs to vindicate their rights is better than the
current jurisprudential word jumble.
Dissenting from the denial of rehearing en banc, Judge
Bress, joined by Judges Bade, Collins and Hunsaker,
stated that the panel opinion in this case recognized two
novel implied rights of action under Bivens. In so doing,
the panel decision was significantly out of step with
modern Supreme Court cases emphasizing that the
Bivens remedy is not to be lightly extended. Judge Bress
stated that there were many reasons counseling hesitation
in devising court-created First and Fourth Amendment
damages remedies against a federal agent for actions
relating to his investigation of an international traveler
near the international border.
COUNSEL
Breean L. Beggs (argued), Paukert & Troppmann PLLC,
Spokane; Gregory Donald Boos, W. Scott Railton, and
Halley Carlson Fisher, Cascadia Cross-Border Law,
Bellingham, Washington; for Plaintiff-Appellant.
Geoff Grindeland (argued) and Nikki Carsley, Seamark
Law Group PLLC, Bainbridge Island, Washington, for
Defendants-Appellees.
Matt Adams (argued), Northwest Immigrant Rights
Project, Seattle, Washington; Mary Kenney, American
Immigration Council, Washington, D.C.; Trina Realmuto,
American Immigration Council, Brookline,

7a
Massachusetts; for Amici Curiae American Immigration
Council and Northwest Immigrant Rights Project.
ORDER
The opinion filed on November 20, 2020, and reported
at Boule v. Egbert, 980 F.3d 1309 (9th Cir. 2020), is
amended, and the amended opinion is filed concurrently
with this order.
An active judge of this court sua sponte requested a
vote on whether to rehear this case en banc. A vote was
taken and the matter failed to receive a majority of the
votes of the non-recused active judges in favor of en banc
consideration. See Fed. R. App. P. 35(f). Rehearing en
banc is DENIED.
Judge Bumatay’s, Judge Owens’s, and Judge Bress’s
dissents from the denial of rehearing en banc are attached
and filed concurrently with this order.

BUMATAY, Circuit Judge, joined by CALLAHAN,
IKUTA, BENNETT, R. NELSON, LEE, and
VANDYKE, Circuit Judges, dissenting from the denial of
rehearing en banc:
Contrary to common belief, the Constitution’s “radical
innovation” is not its various enumerated rights—as
cherished and fundamental as they are. 1 It is the
Constitution’s design for the separation of powers that has
become among the “most important contributions to
1

Neil Gorsuch, A Republic, If You Can Keep It 40 (2019).

8a
human liberty.” 2 Having “lived among the ruins of a
system of intermingled legislative and judicial powers,”
our Founders sensed the “sharp necessity to separate the
legislative from the judicial power.” Plaut v. Spendthrift
Farm, Inc., 514 U.S. 211, 219, 221 (1995). The result is the
clear division of authorities between Congress’s
“legislative powers” and the Judiciary’s “judicial Power.”
U.S. Const. art. I, § 1; id. art. III, § 1.
In this case, we are asked to decide which branch of
government may create the legal remedies available to the
people for constitutional violations. From the ratification
of the Bill of Rights until 1971, the Judiciary has rightfully
respected the separation of powers and deferred to
Congress and the States to provide remedies for such
violations. That all changed when the Supreme Court for
the first time read an implied cause of action into the
Constitution for violation of the Fourth Amendment. See
Bivens v. Six Unknown Named Agents of Federal Bureau
of Narcotics, 403 U.S. 388 (1971). The Court, of course,
did not ground such a ruling in the text or history of the
Constitution, but relied on the amorphous belief that
federal courts have the authority to “make good the wrong
done.” Id. at 396.
Since then, however, the Court has seemingly shown
buyer’s remorse—recognizing Bivens as a judicial
usurpation of the legislative function and blocking its
expansion to any new amendments, contexts, or
defendants. In consequence, the judicial practice of
creating constitutional causes of action is widely
considered disfavored—if not a dead letter.
Against this current, our court charges ahead,
2

Id.

9a
resurrecting Bivens in spite of the Court’s clear
instructions. Here, we extend Bivens to two new contexts:
one involving the First Amendment and another involving
the Fourth Amendment at the border. Never mind that
the Court has never extended Bivens to the First
Amendment. And never mind that it has never extended
Bivens to any case with national security implications.
By avoiding the Constitution’s limits on the “judicial
Power,” we become an outlier among our fellow circuit
courts and establish ourselves as a quasi-legislature.
Because we far exceeded our limited judicial role and
improperly disregarded the Court’s precedents in this
case, I respectfully dissent from the denial of rehearing en
banc.
I.
Robert Boule operates a bed and breakfast located
directly adjacent to the border with Canada, in Blaine,
Washington. Boule v. Egbert, 980 F.3d 1309, 1312 (9th Cir.
2020). The B&B is aptly called “Smuggler’s Inn,” because
it’s a notorious site for illegal border crossing. 3 Large
shipments of cocaine, methamphetamine, ecstasy, and
opiates have previously been intercepted at Smuggler’s
Inn. U.S. Border Patrol Agent Erik Egbert knew about
this history.
In fact, as a Border Patrol Agent
investigating counterterrorism and cross-border crimes,
Agent Egbert had been to Smuggler’s Inn many times
while on patrol and had apprehended persons who had
illegally crossed the border at the spot.
While on duty, Agent Egbert encountered Boule in
Boule has since been arrested by Canadian authorities and
charged with human trafficking.
3

10a
town. To Egbert’s recollection, Boule told him that a
Turkish national would be arriving at Smuggler’s Inn that
day. Boule said that two of his employees went to the
airport to pick up the individual. Agent Egbert decided to
investigate the Turkish national’s arrival.
Later that day, Agent Egbert waited in his patrol car
near Smuggler’s Inn for the Turkish guest. When the
vehicle transporting the guest arrived, Agent Egbert
followed it into the Inn’s driveway.
As Egbert
approached, Boule asked the agent to leave. Agent
Egbert refused, so Boule stepped between Egbert and the
vehicle. Agent Egbert responded by pushing him to the
ground, which later caused him to seek medical treatment.
Agent Egbert then determined that the Turkish guest was
lawfully in the country. Afterward, Boule complained to
Egbert’s superiors about the incident. In retaliation,
Boule says, Agent Egbert contacted the Internal Revenue
Service (asking it to investigate Boule’s tax status) and
various other government agencies.
Boule then brought this suit—filing Bivens claims for
damages under the First and Fourth Amendment. First,
Boule asserts that Agent Egbert violated his First
Amendment rights by retaliating against him for
complaining to the agent’s superiors about the incident.
Second, Boule contends that Agent Egbert violated his
Fourth Amendment rights when he came onto his
property, refused to leave, and pushed him to the ground.
The district court granted summary judgment in favor
of Agent Egbert, refusing to extend Bivens under either
amendment. Boule appealed, and the panel reversed.
That was error.

11a
II.
The text of the Constitution provides for no express
cause of action for damages against federal officials for
violations of its provisions. And for almost 200 years, no
implied cause of action existed under the Constitution
either. That did not mean that remedies were unavailable
for constitutional infringements by federal officials.
Indeed, it was considered axiomatic at the Founding that
for every “legal right, there is also a legal remedy.”
Marbury v. Madison, 5 U.S. 137, 163 (1803) (discussing 3
William Blackstone, Commentaries *23). But Foundingera courts did not fashion their own damages remedy
under the Constitution.
Instead, from “the beginning of the nation’s history,”
federal courts have recognized that federal officials were
subject to “common law suits,” which served as the
remedy to their legal violations “as if they were private
individuals.” Carlos M. Vázquez & Stephen I. Vladeck,
State Law, the Westfall Act, and the Nature of the Bivens
Question, 161 U. Pa. L. Rev. 509, 531 (2013). Thus, at our
Founding, “only state law . . . furnished any redress for . . .
unconstitutional conduct by federal officials.” Akhil Reed
Amar, Of Sovereignty and Federalism, 96 Yale L.J. 1425,
1506 (1987) (describing the remedy for the
unconstitutional search of one’s home).
The Supreme Court’s “early adopted” rule was that a
“government agent [was] personally liable for the breach
of any duty imposed by the common law or by statute
unless” the action was authorized by federal law. Note,
Developments in the Law: Remedies Against the United
States and Its Officials, 70 Harv. L. Rev. 827, 831–32
(1957). Under that rule, if the plaintiff could establish that

12a
the official’s conduct violated the Constitution, the
“defendant’s shield of federal power would dissolve, and
he would stand as a naked [state-law] tortfeasor.” Amar,
supra, at 1506–07.
An early example of this remedial framework occurred
during the Quasi-War between the United States and
France in the administration of President John Adams.
See Little v. Barreme, 6 U.S. 170 (1804). At the time, a
federal statute authorized the President to order navy
officers to seize ships sailing to France. Id. at 170–73. But
in the case, the commander of an American warship had
seized a Danish cargo ship sailing from France. Id. The
ship’s owner sued for trespass damages. Id. at 179. The
Supreme Court upheld the naval officer’s liability to suit
because federal law did not warrant the capture of the
ship. Id. at 176. As Chief Justice Marshall explained, a
federal officer acting under federal law does so “at his
peril;” if the officer’s actions “are not strictly warranted
by law[,] he is answerable in damages to any person
injured by [the action’s] execution.” Id. at 170.
This view persisted through the Civil War, when tort
suits were used against alleged federal government
excesses. Andrew Kent, Are Damages Different?: Bivens
and National Security, 87 S. Cal. L. Rev. 1123, 1163–64
(2014) (describing how “thousands of tort suits were filed
against Union soldiers and civilian executive officials”
during the Civil War).
The Supreme Court continued to adhere to this
framework through most of the 20th century. In 1963, the
Court still recognized that “[w]hen it comes to suits for
damages for abuse of power, federal officials are usually
governed by local law.” Wheeldin v. Wheeler, 373 U.S.
647, 652 (1963). In the Court’s view, “[f]ederal law” may

13a
“suppl[y] the defense, if the conduct complained of was
done pursuant to a federally imposed duty or immunity
from suit.” Id. (simplified). But it saw no occasion to
create constitutional causes of action. In that case, a
plaintiff sought to sue federal officers for serving a
subpoena in violation of the Fourth Amendment. Id. at
649. Acknowledging the central role of the legislative
branch in fashioning such a claim, the Court held that
Congress had passed “no general statute making federal
officers liable for acts committed ‘under color,’ but in
violation, of their federal authority.” Id. at 652. “Congress
could, of course, provide otherwise, but it has not done so.”
Id.
Less than a decade later, however, the Court altered
this framework. In 1971, the Supreme Court concluded
for the first time that the violation of a constitutional
protection—in this case, the Fourth Amendment—could
give rise to a cause of action for money damages against
federal agents. Bivens, 403 U.S. at 392, 397. While the
Court conceded that the Fourth Amendment’s text did not
authorize such damages, it relied on the lack of any
“explicit congressional declaration” foreclosing money
damages and reasoned that no “special factors” counseled
the Court to “hesitat[e]” to create a remedy in the absence
of affirmative action by Congress. Id. at 396–97.
In the ten years following Bivens, the Court went on
to accept implied causes of action for constitutional
violations in only two additional cases. In 1979, the Court
held that a federal employee could sue a congressman for
gender discrimination under the Fifth Amendment’s Due
Process Clause. See Davis v. Passman, 442 U.S. 228
(1979). One year later, the Court held that a prisoner
could sue federal prison officials for failing to adequately

14a
treat his medical conditions under the Eighth
Amendment’s Cruel and Unusual Punishments Clause.
See Carlson v. Green, 446 U.S. 14 (1980). This was the last
time the Court has recognized a new Bivens claim.
Since then, the Court has backtracked on its adoption
of implied rights of action under the Constitution. In fact,
the Court has repeatedly refused to extend Bivens
liability at all—not to any other amendment, new context,
or category of defendants. Corr. Servs. Corp. v. Malesko,
534 U.S. 61, 68 (2001). By one count, the Court has
expressly refused to extend Bivens on ten separate
occasions. See Loumiet v. United States, 948 F.3d 376, 381
(D.C. Cir. 2020). 4 Instead, Bivens and its progeny have
been cast as a “relic” of the “heady days in which [the]
Court assumed common-law powers to create causes of
action.” Corr. Servs. Corp., 534 U.S. at 75 (Scalia, J.,
concurring); see also Hernandez v. Mesa, 140 S. Ct. 735,
750 (2020) (Thomas, J., concurring) (“The foundation for
Bivens—the practice of creating implied causes of action
in the statutory context—has already been abandoned.”).
What brought about this change in the Court’s
jurisprudence? Well, since the 1980s, the Court has come
to “appreciate more fully the tension between this practice
[of creating causes of action] and the Constitution’s
separation of legislative and judicial power.” Hernandez,
140 S. Ct. at 741. As the Court recognized, it is “a
Three times due to the availability of alternative remedies; three
times due to its national security or military context; and three times
because of the involvement of new categories of defendants, such as
private individuals, private corporations, and federal agencies.
Loumiet, 948 F.3d at 381 (collecting cases). And once, simply because
the Court decided that Congress is in a better position to craft a
remedy for alleged retaliation by federal officials. Id.
4

15a
significant step under separation-of-powers principles for
a court to determine that it has the authority, under the
judicial power, to create and enforce a cause of action for
damages against federal officials in order to remedy a
constitutional violation.” Ziglar v. Abbasi, 137 S. Ct. 1843,
1856 (2017). Such action “risks arrogating legislative
power.” Hernandez, 140 S. Ct. at 741.
Fundamentally, “Congress is best positioned to
evaluate whether, and the extent to which, monetary and
other liabilities should be imposed upon individual officers
and employees of the Federal Government based on
constitutional torts.” Id. at 742 (simplified). Thus, the
Court has made clear that the expansion of Bivens is a
“‘disfavored’ judicial activity.” Abbasi, 137 S. Ct. at 1857
(quoting Ashcroft v. Iqbal, 556 U.S. 662, 675 (2009)).
For that reason, the Court has adopted a two-step
process to limit the recognition of new constitutional
remedies. See Wilkie v. Robbins, 551 U.S. 537, 550 (2007).
The first question asks whether the claim arises in a
context different from what the Court has previously
recognized. Hernandez, 140 S. Ct. at 743. If so, the next
question considers whether any special factors counsel
hesitation before expanding Bivens to that new context.
Id.
To decide whether any “special factors” bar the
extension of Bivens, the inquiry focuses on “who should
decide whether to provide for a damages remedy.”
Abbasi, 137 S. Ct. at 1857 (simplified). This analysis
includes consideration of “the risk of interfering with the
authority of the other branches,” “whether there are
sound reasons to think Congress might doubt the efficacy
or necessity of a damages remedy,” and “whether the
Judiciary is well suited . . . to consider and weigh the costs

16a
and benefits of allowing a damages action to proceed.”
Hernandez, 140 S. Ct. at 743 (simplified).
The threshold for what constitutes a “special factor”
counseling hesitation is “remarkably low.” Arar v.
Ashcroft, 585 F.3d 559, 574 (2d Cir. 2009). Hesitation is
counseled whenever “thoughtful discretion” would cause
us to pause to even “consider” recognizing a new context.
Id. If any special factors do exist, “then courts must
refrain from creating an implied cause of action in that
case.” Canada v. United States, 950 F.3d 299, 309 (5th Cir.
2020) (simplified). In other words, “if [the court has]
reason to pause before applying Bivens in a new context
or to a new class of defendants—[the court must] reject
the request.” Hernandez, 140 S. Ct. at 743. The lesson
from the Court is, thus, a strong presumption against
expanding Bivens. When answering the ultimate question
of who should decide on the creation of a new cause of
action, the answer is almost always Congress.
Against this legal backdrop, the court clearly erred in
extending Bivens to two new contexts in this case.
III.
At bottom, this case distills down to the question of
who should decide whether a right of action should exist
for alleged violations of the First Amendment and of the
Fourth Amendment in the border enforcement context.
This court’s answer: Judges. Rather than deferring to
Congress, we casually craft for Boule new causes of action
for his constitutional claims. This flies in the face of
everything the Court has told us over the last 20 years and
ignores our Constitution’s core separation-of-powers
concern. We should have corrected this error on en banc

17a
review.
A.
In summary fashion, the panel found no reason to
pause before extending Bivens to Boule’s First
Amendment claim. See Boule, 980 F.3d at 1316. It
reasoned that retaliation is a well-known claim against
government officials and that Agent Egbert’s alleged
retaliatory conduct was not related to his official duties as
a Border Patrol agent. Id. The panel also did not think
any alternative remedies existed for Boule. Id. at 1316–
17. In its amended opinion, the panel newly relies on
dictum from Hartman v. Moore, 547 U.S. 250, 256 (2006).
While the panel could think of no reasons to hesitate,
there are at least four: (1) congressional silence,
(2) Supreme Court precedent, (3) the precedent of our
fellow circuits, and (4) the various potential alternative
remedies available to Boule.
1.
Most fundamentally, the panel should not have created
a new First Amendment cause of action because that is the
business of Congress, not the courts.
Liberty, Hamilton famously warned, has “every thing
to fear” from the union of these two powers. The
Federalist No. 78 (Alexander Hamilton).
But, he
explained, “the general liberty of the people can never be
endangered . . . so long as the judiciary remains truly
distinct” from the legislature. Id. In 1625, Francis Bacon
similarly cautioned that “[j]udges ought to remember that
their office is jus dicere, and not jus dare; to interpret law,
and not to make law, or give law.” Francis Bacon, The

18a
Essays of Francis Bacon 251, 251 (Mary Augusta Scott,
ed. 1908). So, as federal judges, our limited role is “to say
what the law is,” and nothing more. Marbury, 5 U.S. at
177. Conversely, it is “the exclusive province of the
Congress” to craft legislation. Tenn. Valley Auth. v. Hill,
437 U.S. 153, 194 (1978).
The panel dispensed with these principles when it
created a cause of action against federal officers for
retaliation under the First Amendment. The text of that
amendment is, of course, not amenable to this
construction: it prescribes only that “Congress shall make
no law . . . abridging the freedom of speech.” U.S. Const.
amend. I. Indisputably, this provision does not create a
private cause of action. Rather, it sets out a “fundamental
law, limiting the powers of the Legislature, and with which
every exercise of those powers must, necessarily, be
compared.” 5
Neither can Congress’s failure to create such a remedy
be characterized as accidental or unknowing. In 1946,
Congress passed the Federal Tort Claims Act, “which
waived the sovereign immunity of the United States for
certain torts committed by federal employees.”
Brownback v. King, 141 S. Ct. 740, 746 (2021) (quoting
F.D.I.C. v. Meyer, 510 U.S. 471, 475 (1994)); see 28 U.S.C.
§§ 1346(b)(1), 2674. Congress has also created a right of
action for constitutional violations by state actors. See 42
U.S.C. § 1983. But insofar as Congress, through the
FTCA and § 1983, has not provided a remedy to Boule for
his retaliation claim, the separation of powers commands
that we must respect that silence. See Oliva v. Nivar, 973
Letter from James Iredell to Richard Spaight (Aug. 26, 1787),
in Gordon Wood, The Creation of the American Republic 1776–1787,
at 461 (1969).
5

19a
F.3d 438, 444 (5th Cir. 2020) (the “silence of Congress” is
a special factor counseling hesitation) (quoting Abbasi, 137
S. Ct. at 1862). Especially because, as the FTCA and
§ 1983 demonstrate, “Congress . . . knows how to create a
cause of action to recover damages for constitutional
violations when it wishes to do so.” Hernandez, 140 S. Ct.
at 752 (Thomas, J., concurring).
2.
We also should have hesitated because the Supreme
Court has expressly declined to extend Bivens to the First
Amendment context. Back in 1983, even during the
heyday of Bivens expansions, the Court refused to allow a
federal employee to sue his supervisor for retaliatory
demotion under the First Amendment. See Bush v.
Lucas, 462 U.S. 367 (1983). The Court assumed that the
federal agency violated his First Amendment right but
still declined to create a new Bivens remedy for the
employee. Id. at 372, 390. In doing so, the Court declined
to say whether it was “good policy to permit a federal
employee to recover damages from a supervisor who has
improperly disciplined him for exercising his First
Amendment rights.” Id. at 390. Instead, the Court
concluded that “Congress is in a better position to decide
whether or not the public interest would be served by
creating it.” Id. Since then, the Court’s position has not
changed. See Iqbal, 556 U.S. at 675 (“Indeed, we have
declined to extend Bivens to a claim sounding in the First
Amendment.”); Reichle v. Howards, 566 U.S. 658, 663 n.4
(2012) (“We have never held that Bivens extends to First
Amendment claims.”).
The amended opinion now justifies its holding based
on dictum in Hartman. See Am. Op. 41–44. There, the

20a
Court resolved the narrow issue of whether a plaintiff
must plead and show a lack of probable cause to bring a
First Amendment retaliatory prosecution claim under
Bivens. Hartman, 547 U.S. at 256. But rather than
holding such a Bivens remedy exists, the Court appeared
to assume it did. In doing so, the Court offered a single
line that the panel now touts: “[w]hen the vengeful officer
is federal, he is subject to an action for damages on the
authority of Bivens.” Id. It is clear this line was not part
of the Court’s analysis since it later qualified that its
holding was limited to the “requirement[s] of causation,
which [the plaintiff] must plead and prove in order to win,
and our holding does not go beyond a definition of an
element of the tort.” Id. at 257 n.5. As the panel concedes,
the line’s status as dictum is confirmed by the later Court
cases confirming that it has never extended Bivens to the
First Amendment.
By relying on this stray line, we are again an outlier
among our sister courts. Several circuit courts have
expressly declined to read Hartman the way that our
court does. See Bistrian v. Levi, 912 F.3d 79, 95–96 (3d
Cir. 2018) (repudiating the Third Circuit’s earlier reliance
on Hartman to extend Bivens to the First Amendment
claim); Johnson v. Burden, 781 F. App’x 833, 836–37 (11th
Cir. 2019) (explaining that “the Hartman language was
mere dicta”); Storms v. Shinseki, 319 F. Supp. 3d 348, 354
(D.D.C. 2018) (calling reliance on Hartman an
“understandable mistake” and explaining that “[d]ecisions
since Hartman have consistently said that the Supreme
Court has not approved a First Amendment Bivens
claim”), aff’d, 777 F. App’x 522 (D.C. Cir. 2019).
At the end of the day, the Supreme Court’s reluctance
to expand Bivens in the same context is itself a factor that

21a
counsels hesitation here.
3.
The panel’s Bivens extension puts us out of step with
our sister courts, too. Since the adoption of the “counsels
hesitation” test in 2007, circuit courts have nearly
uniformly refused to extend Bivens to the First
Amendment. The Second, Fourth, Sixth, and D.C.
Circuits have all refused to extend the doctrine to the
First Amendment. 6 Even courts that have not expressly
made such a ruling have nonetheless expressed skepticism
that Bivens could be expanded to the First Amendment. 7
To be sure, the Third Circuit has recognized a First
Amendment Bivens claim in more recent times. See Mack
v. Warden Loretto FCI, 839 F.3d 286, 296–97 (3d Cir.
See, e.g., Davis v. Billington, 681 F.3d 377, 388 (D.C. Cir. 2012);
Turkmen v. Hasty, 789 F.3d 218, 236 (2d Cir. 2015); Doe v. Meron, 929
F.3d 153, 169 (4th Cir. 2019); Callahan v. Fed. Bureau of Prisons, 965
F.3d 520, 523–24 (6th Cir. 2020). The D.C. Circuit recognized a First
Amendment Bivens claim in Haynesworth v. Miller, 820 F.2d 1245,
1255 (D.C. Cir. 1987), and Moore v. Valder, 65 F.3d 189, 196 n.12 (D.C.
Cir. 1995), but has since held that those cases “have been overtaken
by Abbasi[.]” Loumiet, 948 F.3d at 382.
6

See Air Sunshine, Inc. v. Carl, 663 F.3d 27, 35 (1st Cir. 2011)
(noting that it is “questionable whether Bivens extends to cases
asserting a violation of First Amendment rights or retaliation for the
exercise of those rights”); Walden v. Ctrs. for Disease Control &
Prevention, 669 F.3d 1277, 1284 n.3 (11th Cir. 2012) (declining to
decide whether Bivens reaches the First Amendment, but noting that
“the Court has repeatedly declined to imply a Bivens remedy in a
variety of contexts”); Pahls v. Thomas, 718 F.3d 1210, 1226 n.6 (10th
Cir. 2013) (“[T]he Court has never held that a Bivens action is
available against federal officials for a claim based upon the First
Amendment.”); Brunson v. Nichols, 875 F.3d 275, 279 n.3 (5th Cir.
2017).
7

22a
2016).
But importantly, the Third Circuit later
backtracked on that decision, explaining that recent
Supreme Court precedent “clearly communicates that
expanding Bivens beyond those contexts already
recognized by the Supreme Court is disfavored” and that
it is Court precedent, “not our own prior precedent, that
must guide us now.” Bistrian, 912 F.3d at 95.
The panel’s decision also creates a conflict within our
own court. Although we had long ago recognized a First
Amendment Bivens claim, see Gibson v. United States,
781 F.2d 1334, 1342 (9th Cir. 1986), we recently refused to
find an implied cause of action to assert such a claim
against private prison officials, see Vega v. United States,
881 F.3d 1146 (9th Cir. 2018). In declining to extend
Bivens, we looked to the remedies available to the plaintiff
under administrative procedures, federal regulations,
state law, and the FTCA. Id. at 1154. We held that
“[e]xpanding Bivens in this context . . . seems imprudent
given the Court’s admonition that ‘any alternative,
existing process for protecting the interest amounts to a
convincing reason for the Judicial Branch to refrain from
providing a new and freestanding remedy in damages.’”
Id. at 1155 (quoting Wilkie, 551 U.S. at 550).
At the end of the day, we are the only federal appellate
court in the nation trying to resurrect Bivens against the
weight of the Court’s precedents. This also counsels
hesitation on our part.
4.
As we did in Vega, we should have looked at the
potential for alternative remedies before casually
expanding Bivens to Boule’s new First Amendment

23a
context. An alternative remedy is sufficient to foreclose a
Bivens extension even if it does “not provide complete
relief,” Bush, 462 U.S. at 388, so “long as Congress’ failure
to provide money damages, or other significant relief, has
not been inadvertent, courts should defer to its
judgment,” Berry v. Hollander, 925 F.2d 311, 314 (9th Cir.
1991) (simplified). Under this low bar, we had ample
reason to deny a Bivens extension.
To make his First Amendment claim, Boule asserts
that Agent Egbert contacted the Internal Revenue
Service and asked it to investigate Boule’s tax status in
retaliation for Boule’s complaints of the agent’s
misconduct. He also alleges that Agent Egbert made
unjustified complaints to various other regulatory
agencies.
To the extent that Boule alleges that Egbert
unlawfully disclosed sensitive information about him, and
that Egbert did so using information available to him
because of his position with Border Patrol, he appears to
be raising a Privacy Act violation. The Privacy Act
requires agencies (such as the U.S. Border Patrol) to
establish safeguards “to insure the security and
confidentiality of records” and protect against disclosures
that “could result in substantial harm, embarrassment,
inconvenience, or unfairness to any individual on whom
information is maintained.” 5 U.S.C. § 552a(e)(10).
Congress gave that mandate teeth by enacting civil
remedies to enforce it. Id. § 552a(g)(1). As a result, a
plaintiff may bring a civil action against an agency
whenever it fails to comply with the Privacy Act’s
requirements “in such a way as to have an adverse effect
on an individual.” Id. § 552a(g)(1)(D).
Second, Boule may have an alternative remedy under

24a
the tax laws. If Boule alleges that Agent Egbert or
someone at the IRS revealed confidential tax information,
he might have considered bringing a suit under 26 U.S.C.
§ 6103. That section provides that no “officer or employee
of the United States” may “disclose any return or return
information obtained by him in any manner in connection
with his service as such an officer or an employee or
otherwise.” Id.
Third, Boule has a variety of state law claims at his
disposal. For instance, Washington courts recognize the
tort of outrage for when a defendant engages in “extreme
and outrageous conduct.” See Spicer v. Patnode, 9 Wash.
App. 2d 283, 292 (2019). Or he might have availed himself
of one of the several privacy torts that Washington
recognizes. See Eastwood v. Cascade Broad. Co., 106
Wash. 2d 466, 469 (1986) (“The protectable interest in
privacy is generally held to involve four distinct types of
invasion: intrusion, disclosure, false light and
appropriation.”). Washington also has an anti-harassment
statute meant to address “invasions of a person’s privacy
by acts and words showing a pattern of harassment
designed to coerce, intimidate, or humiliate the victim.”
Wash. Rev. Code Ann. § 10.14.010. If Boule alleges that
Egbert was lying about him, then Boule could have a claim
for defamation. See Seaquist v. Caldier, 8 Wash. App. 2d
556, 564 (2019) (“A prima facie defamation claim requires
a plaintiff to prove falsity, an unprivileged communication,
fault, and damages.”). 8
The panel summarily concluded that the Westfall Act would bar
any state law remedies to redress Boule’s First Amendment claim.
Boule, 980 F.3d at 1316. But this appears to be incorrect. The
Westfall Act only applies when the Attorney General certifies that
“the employee was acting within the scope of his office or employment
8

25a
The panel was, accordingly, wrong to suggest that
Boule had no avenue for relief for his First Amendment
claim. That Boule had several potential remedies is a
“convincing reason . . . to refrain from providing a new and
freestanding remedy in damages.” Wilkie, 551 U.S. at
550. Indeed, the existence of just one alternative remedy
is generally the end of the inquiry, Ziglar, 137 S. Ct. at
1865—even if that remedy is not “perfect,” Adams v.
Johnson, 355 F.3d 1179, 1185 n.3 (9th Cir. 2004).
*

*

*

All in all, our court today ignores several reasons to
hesitate before extending Bivens to a First Amendment
retaliation claim. Congress’s silence is evidence that it
would question the propriety of the remedy we draft,
especially given the other statutory means for redress.
The Court has also expressly refused to extend Bivens to
the First Amendment; our fellow circuits have uniformly
followed suit. And finally, Boule has alternative remedies
available thanks to both Congress and the state of
Washington.
B.
Turning to Boule’s Fourth Amendment claim for
excessive force and unlawful search, given the national
security implications of that claim, the panel should have
at the time of the incident out of which the claim arose.” Gutierrez de
Martinez v. Lamagno, 515 U.S. 417, 420 (1995) (simplified). Here, the
panel found Agent Egbert’s alleged retaliation “had no relation to, or
justification based on, his duties as a border patrol agent,” Boule, 980
F.3d at 1316, and so the Westfall Act would not apply. The amended
opinion similarly concedes that Egbert “was not carrying out official
duties” when he allegedly retaliated against Boule. Am. Op. at 44.

26a
also declined to extend Bivens to this new context.
Frankly, this should have been an easy call. The Court
has very clearly laid out its instructions regarding Bivens
expansions in the border enforcement context, which
implicates an “element of national security.” Hernandez,
140 S. Ct. at 746. The Court first recognized the
Executive’s prerogative to “protect[] this country . . . by
attempting to control the movement of people and goods
across the border.” Id. Included in this responsibility is
the need to combat illegal cross-border traffic and
powerful criminal organizations operating on both sides of
the border. Id. The Court also acknowledged that Border
Patrol agents are charged with the enormous task of
responding to “terrorists, drug smugglers and traffickers,
human smugglers and traffickers, and other persons who
may undermine the security of the United States.” Id.
(quoting 6 U.S.C. § 211(c)(5)).
The Court thus firmly concluded that judges should
refrain from extending Bivens when doing so would
interfere with border enforcement. Id. at 747. “Since
regulating the conduct of agents at the border
unquestionably has national security implications, the risk
of undermining border security provides reason to
hesitate before extending Bivens into this field.” Id.
Decisions about our national security are “delicate,
complex, and involve large elements of prophecy for which
the Judiciary has neither aptitude, facilities, nor
responsibility.” Id. at 749 (simplified). The judicial
intrusion into the border enforcement space is even more
acute given that the “risk of personal damages liability”
may “cause an official to second-guess difficult but
necessary decisions concerning national-security policy.”
Abbasi, 137 S. Ct. at 1861. In other words, national

27a
security, and specifically, the conduct of agents at the
border, is a red light to Bivens extensions.
Here, Agent Egbert is assigned to a unit that patrols
the
U.S.-Canadian
Border
and
focuses
on
counterterrorism, cross-border crime, and drug and
human trafficking. Smuggler’s Inn is a notorious site of
illegal border crossing, where the smuggling of people,
drugs, illicit money, and other criminal objects frequently
occurs. It also sits directly adjacent to Canada; if it were
any closer, the property would be straddling the border.
On the date of the incident, while patrolling the area
near Smuggler’s Inn, Boule informed Agent Egbert that
he would have a guest arriving from Turkey. While the
exact details of the exchange between Boule and Agent
Egbert are disputed, it is uncontested that Agent Egbert
considered the information he received from Boule
significant enough to investigate the arrival of the Turkish
national. Agent Egbert became concerned that the
Turkish national was planning to cross the border north
into Canada or meet up with persons coming south into
the United States for a criminal purpose. Based on this
concern, Agent Egbert entered Boule’s property, which
led to the incidents at issue in the Fourth Amendment
claim.
Thus, the subject of this litigation is a Border Patrol
agent’s conduct during an on-duty investigation of a
foreign national, at a property known for smuggling
activity, adjacent to an international border.
Our
hesitation to legislate in this area should have been
uncontroversial. Given the national security implications
of this case, we should have deferred to Congress to
determine if a cause of action should lie with Fourth
Amendment claims like Boule’s.

28a
Moreover, judicially crafting a Bivens action here
could lead to a slew of unintended consequences, which we
are not competent to evaluate. As the district court
forewarned,
[T]he risk of personal liability would cause
Border Patrol agents to hesitate and second
guess their daily decisions about whether
and how to investigate suspicious activities
near the border, paralyzing their important
border security mission.
Likewise, . . .
Congress is in the best position to evaluate
the costs and benefits of a new legal remedy,
particularly when it has already granted
Border Patrol broad authority to secure the
international border without providing a
damages remedy for claims arising in that
context.
Boule v. Egbert, No. C17-0106 RSM, 2018 WL 4078852, at
*4 (W.D. Wash. Aug. 24, 2018) (citations omitted).
Finally, the panel plowed forward even though Boule
has already availed himself of a congressionally enacted
remedy. The record reveals that Boule filed a tort claim
with Customs and Border Protection for injuries arising
out of the incident with Agent Egbert. He was able to do
so because of the administrative remedy provided by the
FTCA. 9 Even if the FTCA remedy does not provide the
“exact same kind of relief” as Bivens, the mere existence
of such an alternative is reason to hesitate here. Oliva,
See 28 C.F.R. § 14.2; 28 U.S.C. § 2401; see also David C.
Sarnacki, Filing an Administrative Claim Under the Federal Tort
Claims Act, Wis. B. Bull. (Sept. 1988); see also Claims for property
damages or loss, or personal injury, or death, U.S. Customs and
Border Protection, https://help.cbp.gov/s/article/Article-178.
9

29a
973 F.3d at 444.
We should have corrected this Bivens error on en banc
review.
IV.
The Constitution is a document of remarkable
importance. Carefully following its commands is all that
keeps us a government of laws and not of men. It is thus
a matter of great seriousness when federal officials violate
the Bill of Rights.
Yet, that same reverence for the Constitution leads me
unambiguously to my conclusion today. We cannot
respond to executive transgression of the Constitution
with our own judicial overreach. As federal judges, it is
not within our power to create a cause of action for Robert
Boule, no matter how convinced we are that he deserves
one.
Today, our court sanctions judicial legislation against
the clear weight of Supreme Court precedent. And
against the clear text of the Constitution. With respect, I
dissent.
OWENS, Circuit Judge, dissenting from the denial of
rehearing en banc:
Congress didn’t care what I thought back in 1997 when
I was 25 years old, and it probably cares less now as I
approach 50. And though hopefully I’ve improved with
age, our Bivens jurisprudence has not. I continue to
believe that new legislation that permits plaintiffs to
vindicate their rights is better than our current
jurisprudential word jumble. See John B. Owens, Note,

30a
Judge Baer and the Politics of the Fourth Amendment:
An Alternative to Bad Man Jurisprudence, 8 Stan. L. &
Pol’y Rev. 189 (1997) (pointing out the limitations of
Bivens actions and setting forth some admittedly pie in
the sky solutions).
BRESS, Circuit Judge, joined by BADE, COLLINS, and
HUNSAKER, Circuit Judges, dissenting from the denial
of rehearing en banc:
The panel opinion in this case recognizes two novel
implied rights of action under Bivens v. Six Unknown
Named Agents of Federal Bureau of Narcotics, 403 U.S.
388 (1971). In so doing, the panel decision is significantly
out of step with modern Supreme Court cases
emphasizing that the Bivens remedy is not to be lightly
extended. See, e.g., Hernandez v. Mesa, 140 S. Ct. 735,
742–43 (2020); Ziglar v. Abbasi, 137 S. Ct. 1843, 1857–58
(2017).
The causes of action that the panel fashioned arise in a
decidedly new context from those few previous cases in
which a Bivens remedy was permitted. See Hernandez,
140 S. Ct. at 743–44. And while the panel discerned no
“special factors counseling hesitation” in creating two new
Bivens causes of action, Abbasi, 137 S. Ct. at 1857, I think
it self-evident that there are many reasons counseling
hesitation in devising court-created First and Fourth
Amendment damages remedies against a federal agent for
actions relating to his investigation of an international
traveler near the international border. Judge Bumatay’s
separate dissent forcefully highlights some of these
reasons.
Because the panel decision is inconsistent with the

31a
Supreme Court’s directives on Bivens remedies, I
respectfully dissent from the denial of rehearing en banc.

OPINION
W. FLETCHER, Circuit Judge:
The Supreme Court first recognized an implied right
of action for damages against federal officers in Bivens v.
Six Unknown Named Agents of Federal Bureau of
Narcotics, 403 U.S. 388 (1971). The Court held that
damages were recoverable directly under the Fourth
Amendment when federal officers arrested and searched
the plaintiff without a warrant or probable cause, and
when they employed unreasonable force in making the
arrest. Id. at 389, 395–96. In the years after Bivens, the
Court also has recognized implied rights of action for
damages under the Fifth and Eighth Amendments. See
Davis v. Passman, 442 U.S. 228 (1979) (recognizing a
damages remedy for a gender discrimination claim
against a United States Congressman under the equal
protection component of the Fifth Amendment Due
Process Clause); Carlson v. Green, 446 U.S. 14 (1980)
(recognizing a damages remedy against federal prison
officials for failure to provide adequate medical treatment
under the Eighth Amendment’s Cruel and Unusual
Punishment Clause).
We are asked to decide whether a Bivens damages
remedy is available to a United States citizen plaintiff who
contends that a border patrol agent, acting on the
plaintiff’s property within the United States, violated his
rights under the First and Fourth Amendments.
Although the Supreme Court has made clear that

32a
“expanding the Bivens remedy is now a disfavored judicial
activity,” a Bivens remedy is still available in appropriate
cases and there are “powerful reasons” to retain it in its
“common and recurrent sphere of law enforcement.”
Ziglar v. Abbasi, 137 S.Ct. 1843, 1857 (2017) (internal
quotation marks omitted).
In considering possible extensions of Bivens, we
engage in a “two-step inquiry,” “first inquir[ing] whether
the request involves a claim that arises in a ‘new context’
or involves a ‘new category of defendants’” and then
“ask[ing] whether there are any ‘special factors that
counsel hesitation.’” Hernandez v. Mesa, 140 S.Ct. 735,
743 (2020) (citing Abbasi, 137 S.Ct. at 1859). Applying this
framework, we reverse the district court and hold that
Boule may pursue a Bivens remedy for his First and
Fourth Amendment claims.
I. Background
Because this case comes before us on an appeal of a
grant of summary judgment for Defendant, we draw all
reasonable factual inferences in favor of Plaintiff, Robert
Boule. Tolan v. Cotton, 572 U.S. 650, 656–57 (2014). We
recite the facts viewed through that lens.
Boule is a United States citizen. He owns, operates,
and lives in a small bed and breakfast inn in Whatcom
County, in the city of Blaine, Washington. The back
property line of the land on which the inn is located
touches the United States-Canada border. At the time of
the events in question, Boule was a paid informant for the
government. He had been an informant for the Border
Patrol beginning in about 2003 and for Immigration and
Customs Enforcement beginning in about 2008.
Information provided by Boule about guests at his inn had

33a
resulted in numerous arrests.
On March 20, 2014, Border Patrol Agent Erik Egbert
stopped Boule while he was running errands “in town” and
asked him about guests staying at the inn. Boule told
Egbert that he had a guest arriving that day from New
York who had flown in from Turkey the day before. Boule
told him that two of his employees were en route to pick
up the guest at Seattle-Tacoma (“Sea-Tac”) International
Airport, about 125 miles south of Blaine. Later that day,
Egbert waited in his border patrol vehicle near the inn.
The entrance to the inn is on a road at the front of the
property. When the guest arrived, Egbert followed the
car carrying the arriving guest into the driveway of the
inn.
Agent Egbert got out of his vehicle and approached
the car. From the front porch of the inn, Boule asked
Egbert to leave. When Egbert refused, Boule stepped
between Egbert and the car and again asked him to leave.
Egbert then shoved Boule against the car. When Boule
did not move away from the car, Egbert grabbed him and
pushed him aside and onto the ground.
Agent Egbert then opened the car door and asked the
guest about his immigration status. Boule made a 911 call
to request a supervisor. Egbert also relayed the request
over dispatch. A supervisor and another agent arrived in
response. After concluding that the guest was lawfully in
the country, the three officers departed. Boule later
sought medical treatment for injuries to his back.
After Boule complained to Agent Egbert’s superiors
about the incident, Egbert retaliated against Boule.
Egbert contacted the Internal Revenue Service, asking
the agency to look into Boule’s tax status. The Service

34a
conducted an audit of several years of Boule’s tax returns,
and Boule paid over $5,000 to his accountant to assist him
in responding to the audit. Egbert also contacted the
Social Security Administration, the Washington State
Department of Licensing, and the Whatcom County
Assessor’s Office, each of which then conducted formal
inquiries into Boule’s business activities.
Boule filed a complaint against Agent Egbert in
federal district court, seeking damages under Bivens for
a violation of Fourth and First Amendment rights. The
district court granted summary judgment to Egbert on
Boule’s Fourth and First Amendment claims, holding that
they were impermissible extensions of Bivens. Boule
timely appealed.
II. Discussion
We review de novo a district court’s decision on
summary judgment. Brunozzi v. Cable Commc’ns, Inc.,
851 F.3d 990, 995 (9th Cir. 2017). We address Boule’s
Fourth and First Amendment claims in turn, applying the
framework established in Abbasi, 137 S.Ct. at 1859, and
relied on in Hernandez, 140 S.Ct. at 743. We ask whether
Boule’s claims arise in a new context and, if so, whether
any special factors counsel hesitation in finding a viable
Bivens claim. Id.
The Supreme Court’s understanding of a “new
context” in a Bivens analysis is “broad.” A context is
“‘new’ if it is ‘different in a meaningful way from previous
Bivens cases decided by this Court.’” Id. (citing Abbasi,
137 S.Ct. at 1859). The Court wrote in Abbasi:
Without endeavoring to create an
exhaustive list of differences that are
meaningful enough to make a given context

35a
a new one . . . [:] A case might differ in a
meaningful way because of the rank of the
officers involved; the constitutional right at
issue; the generality or specificity of the
official action; the extent of judicial
guidance as to how an officer should
respond to the problem or emergency to be
confronted; the statutory or other legal
mandate under which the officer was
operating; the risk of disruptive intrusion by
the Judiciary into the functioning of other
branches; or the presence of potential
special factors that previous Bivens cases
did not consider.
137 S. Ct. 1859–60. The Court cautioned that “even a
modest extension is still an extension.” Id. at 1864.
If we conclude that a claim arises in a new context, we
ask “whether there are any special factors that counsel
hesitation about granting the extension.” Hernandez, 140
S.Ct. at 743 (citing Abbasi, 137 S. Ct. at 1857). The Court
acknowledged in Abbasi that it has not defined “special
factors,” but noted that
the inquiry must concentrate on whether
the Judiciary is well suited, absent
congressional action or instruction, to
consider and weigh the costs and benefits of
allowing a damages action to proceed. Thus,
to be a special factor counselling hesitation,
a factor must cause a court to hesitate
before answering that question in the
affirmative.
137 S. Ct. at 1857–58 (internal quotation marks omitted).

36a
The Court wrote in Hernandez that a court should
“consider the risk of interfering with the authority of the
other branches” and should “ask whether there are sound
reasons to think Congress might doubt the efficacy or
necessity of a damages remedy and whether the Judiciary
is well suited, absent congressional action or instruction,
to consider and weigh the costs and benefits of allowing a
damages action to proceed.” Hernandez, 140 S. Ct. at 743
(internal citations and quotation marks omitted).
A. Fourth Amendment
The district court assumed that Boule’s Fourth
Amendment excessive force claim is a “modest extension”
in a new context. We agree that it is an extension, in that
Agent Egbert is an agent of the border patrol rather than
of the F.B.I. But it is a modest extension, in that border
patrol and F.B.I. agents are both federal law enforcement
officials, and in that Boule’s Fourth Amendment excessive
force claim is indistinguishable from Fourth Amendment
excessive force claims that are routinely brought under
Bivens against F.B.I. agents. However, we do not find
that special factors “counsel hesitation” such that a Bivens
action in this new context is foreclosed. Boule, a United
States citizen, is bringing a conventional Fourth
Amendment excessive force claim arising out of actions by
a rank-and-file border patrol agent on Boule’s own
property in the United States. This context is a far cry
from the contexts in Abbasi and Hernandez, where the
Court found that special factors counseled against a
Bivens action.
In Abbasi, the plaintiffs were foreign nationals who
had been unlawfully present in the United States.
Following the terrorist attacks on September 11, 2001, the
F.B.I. designated plaintiffs as persons “of interest” in the

37a
post-attack investigation, and plaintiffs were incarcerated
in harsh conditions. 137 S. Ct. at 1852–53. After plaintiffs
were released and removed from the United States, they
brought a Bivens action against federal executive officials
and detention facility wardens, seeking damages based on
the decisions that had led to their incarceration and based
on the conditions of their confinement. Id. at 1851–52.
The Court refused to allow a Bivens action, holding that
special factors counseled hesitation in extending Bivens in
this new context. Id. at 1859–61. The Court emphasized
that the plaintiffs’ claims challenged high-level Executive
Branch decisions involving issues of national security. Id.
at 1860–62.
In Hernandez, the plaintiffs were Mexican nationals
whose child had been killed by a United States border
patrol agent. 140 S. Ct. at 740. The agent had been on the
United States side of the border, the child had been on the
Mexico side, and the agent had shot at the child across the
border. Id. The Mexican government had unsuccessfully
sought extradition of the agent to Mexico. The U.S.
Department of Justice had conducted an investigation and
declined to bring charges against the agent. Id. The
Court held that the parents’ claims arose in a new context
and were precluded by special factors. Id. at 744, 749. The
Court noted several “warning flags,” including the effect
on foreign relations, the implications for national security,
and the fact that the harm occurred in another country.
Id. at 744, 746, 747.
The only aspects of the claim now before us that touch
even tangentially on the concerns raised in Abbasi and
Hernandez are that Boule’s inn is at the United StatesCanada border and that Agent Egbert was investigating
the status of a foreign guest who was arriving at the inn.

38a
In finding special factors in Hernandez, the Court wrote:
“[S]ome [border patrol agents] are stationed right at the
border and have the responsibility of attempting to
prevent illegal entry. For these reasons, the conduct of
agents positioned at the border has a clear and strong
connection to national security.” 140 S. Ct. at 746. The
contrast between Hernandez and the case before us is
self-evident. The agent in Hernandez was literally “at the
border,” tasked with policing the border and preventing
illegal entry of goods and people. See id. As Egbert had
already been informed by Boule, the arriving guest in
whom Egbert was interested had been driven from SeaTac airport after arriving on a flight from New York.
Further, the plaintiffs in Hernandez were foreign
nationals, complaining of a harm suffered in Mexico.
Boule is a United States citizen, complaining of harm
suffered on his own property in the United States.
Finally, the claim in Hernandez was extremely unusual.
The claim against Egbert is a conventional Fourth
Amendment excessive force claim, indistinguishable from
countless such claims brought against federal, state, and
local law enforcement officials, except for the fact that
Egbert is a border patrol agent. As we noted above,
excessive force Fourth Amendment claims are routinely
brought against F.B.I. agents under Bivens. See, e.g.,
Ganek v. Leibowitz, 874 F.3d 73 (2d Cir. 2017); SotoTorres v. Fraticelli, 654 F.3d 153 (1st Cir. 2011); Harris v.
Roderick, 126 F.3d 1189 (9th Cir. 1997).
The fact that Agent Egbert is a border patrol agent,
standing alone, does not preclude a Bivens action. Courts
in our circuit and others have allowed various Bivens
actions against border patrol agents under the Fourth
Amendment. See, e.g., Morales v. Chadbourne, 793 F.3d

39a
208 (1st Cir. 2015) (Bivens claim by American citizen of
Guatemalan descent against Immigration and Customs
Enforcement officials for detention without probable
cause in violation of the Fourth Amendment); Chavez v.
United States, 683 F.3d 1102 (9th Cir. 2012) (Bivens claim
by American citizens for repeated traffic stops by border
patrol agents in violation of the Fourth Amendment);
Martinez-Aguero v. Gonzalez, 459 F.3d 618 (5th Cir. 2006)
(Bivens claim by Mexican citizen against a border patrol
agent for excessive force at a port of entry in violation of
the Fourth Amendment).
The Supreme Court cautioned in Abbasi that
“national-security concerns must not become a talisman
used to ward off inconvenient claims — a label used to
cover a multitude of sins.” 137 S. Ct. at 1862 (internal
quotation marks omitted). After the Court’s decision in
Abbasi, we allowed an immigrant to pursue a Bivens
action against an Immigration and Customs Enforcement
attorney who had forged a document in order to prevent
his adjustment of status to lawful permanent resident.
Lanuza v. Love, 899 F.3d 1019, 1021 (9th Cir. 2018). We
wrote that although “the Supreme Court has made clear
that expanding the Bivens remedy is now a disfavored
judicial activity,” a Bivens remedy remains available in
appropriate circumstances. Id. (internal quotation marks
omitted). We distinguished Abbasi, noting that, like Boule
in the case before us, the plaintiff did not “challenge highlevel executive action” and did not “challenge or seek to
alter the policy of the political branches.” Id. at 1028, 1029.
In a “run-of-the-mill immigration proceeding” where the
alien had no ties to terrorism, the case was “unrelated to
any other national security decision or interest.” Id. at
1030. We held that “compelling interests that favor

40a
extending a Bivens remedy . . . outweigh the costs of
allowing this narrow claim to proceed against federal
officials.” Id. at 1033. Similarly, in the “run-of-the-mill”
Fourth Amendment case now before us, we hold that any
costs imposed by allowing a Bivens claim to proceed are
outweighed by compelling interests in favor of protecting
United States citizens on their own property in the United
States from unconstitutional activity by federal agents.
In Bivens itself, the Fourth Amendment claim was not
an improper intrusion by the judiciary into the sphere of
authority of other branches.
Nor is the Fourth
Amendment claim here such an intrusion. Boule’s Fourth
Amendment excessive force claim is part and parcel of the
“common and recurrent sphere of law enforcement”
which, under Abbasi, is a permissible area for Bivens
claims. Abbasi, 137 S. Ct. at 1857; id. at 1856 (“[I]t must
be understood that this opinion is not intended to cast
doubt on the continued force, or even the necessity, of
Bivens in the search-and-seizure context in which it
arose.”). We therefore conclude that Boule’s excessive
force Fourth Amendment claim may proceed as a Bivens
damages claim.
B. First Amendment
Boule also presented evidence that Agent Egbert
retaliated against him for exercising his First Amendment
right to complain to Egbert’s superiors about his conduct
at the inn. As recounted above, Egbert contacted the
Internal Revenue Service, the Social Security
Administration, the Washington State Department of
Licensing, and the Whatcom County Assessor’s Office,
asking each of them to investigate Boule.
In Reichle v. Howards, 566 U.S. 658, 663 n.4 (2012), the

41a
Supreme Court wrote that it had “never held that Bivens
extends to First Amendment claims.” It is true that the
Court has never actually held that a First Amendment
retaliation claim may be brought under Bivens. But in
Hartman v. Moore, 547 U.S. 250 (2006), the Court
explicitly stated, as part of its reasoning during the course
of a Bivens analysis, that such a claim may be brought.
It has long been the law that federal officials violate
the First Amendment when they retaliate for protected
speech. See, e.g., Crawford-El v. Britton, 523 U.S. 574, 592
(1998) (“[T]he general rule has long been clearly
established” that “the First Amendment bars retaliation
for protected speech . . .”). In Hartman, plaintiffs sought
to bring a Bivens action, alleging that federal prosecutors
had prosecuted them in retaliation for protected speech.
The Court held that a Bivens action was unavailable, but
only because probable cause supported the prosecution.
The Court wrote that in the absence of probable cause —
that is, in the absence of an innocent motive — a Bivens
action would have been available:
Official reprisal for protected speech
“offends the Constitution [because] it
threatens to inhibit exercise of the
protected right,” Crawford-El v. Britton,
523 U.S. 574, 588, n.10 (1998), and the law is
settled that as a general matter the First
Amendment prohibits government officials
from subjecting an individual to retaliatory
actions, including criminal prosecutions, for
speaking out, id., at 592[.] Some official
actions adverse to such a speaker might well
be unexceptionable if taken on other
grounds, but when nonretaliatory grounds

42a
are in fact insufficient to provoke the
adverse consequences, we have held that
retaliation is subject to recovery as the butfor cause of official action offending the
Constitution. See Crawford-El, supra, at
593[.] When the vengeful officer is federal,
he is subject to an action for damages on the
authority of Bivens. See 403 U.S., at 397.
Hartman, 547 U.S. at 256 (emphasis added) (some
citations omitted).
Although the Supreme Court wrote in Hartman that
Bivens extends to First Amendment retaliation claims
when federal law enforcement officials have no innocent
motive for their actions, we recognize that the Court has
not expressly so held. See Reichle, 566 U.S. at 663 n.4. We
therefore conclude that Boule’s First Amendment
retaliation claim arises in a new context.
However, we find no special factors that make it
inadvisable to find a cognizable Bivens claim in this new
context. First, we have already upheld a Bivens claim in
a different First Amendment context. In Gibson v. United
States, 781 F.2d 1334 (9th Cir. 1986), we upheld a Bivens
claim against federal officers who sought to “curb”
plaintiff’s protected First Amendment speech through a
campaign of defamation, illegal wiretapping, intimidation,
burglary and arson.
Second, the Supreme Court declined to recognize a
Bivens action in Bush v. Lucas, 462 U.S. 367 (1983), but in
a very different context. Plaintiff in Bush was a federal
employee who had complained about his superior. The
Court declined to recognize a Bivens action in this context
“[b]ecause such claims arise out of an employment

43a
relationship that is governed by comprehensive
procedural and substantive provisions giving meaningful
remedies against the United States.” Id. at 368. Boule’s
claim is quite unlike the claim in Bush, where the
employment relationship was key. Boule’s claim is instead
on all fours with the First Amendment retaliation claim
described in Hartman, where the Court wrote that
“[w]hen the vengeful officer is federal, he is subject to an
action for damages on the authority of Bivens.” Hartman,
457 U.S. at 256.
Third, there is even less reason to hesitate in
extending Bivens to Boule’s First Amendment retaliation
claim than there is in his Fourth Amendment excessive
force claim. Just as excessive force is a well-established
Fourth Amendment claim, retaliation is a well-established
First Amendment claim. See Hartman, 547 U.S. at 256
(“the First Amendment prohibits government officials
from subjecting an individual to retaliatory actions . . . for
speaking out”); Lanuza, 899 F.3d at 1033 (recognizing a
Bivens action where “[t]he legal standards for
adjudicating [it] are well established and administrable”).
Boule’s First Amendment retaliation claim presents an
even stronger case for recognition as a Bivens claim. With
respect to Boule’s excessive force claim, Agent Egbert’s
actions, even if illegal, were taken during the performance
of his official duties. The same is not true for Boule’s
retaliation claim. Though Egbert identified himself as a
border patrol agent when he contacted the Internal
Revenue Service, and may have done so when he
contacted the Social Security Administration, the
Washington State Department of Licensing, and the
Whatcom County Assessor’s Office, he was not carrying
out official duties in asking for investigations of Boule.

44a
C. Existence of Alternative Remedies
Finally, we consider whether there are available
alternative remedies.
When there are available
alternative remedies sufficient to protect a plaintiff’s
interests, “a Bivens remedy usually is not” available.
Abbasi, 137 S. Ct. at 1863; see Fazaga v. Federal Bureau
of Investigation, 965 F.3d 1015, 1057 (9th Cir. 2020). The
availability of alternative remedies “raises the inference
that Congress expected the Judiciary to stay its Bivens
hand and refrain from providing a new and freestanding
remedy in damages.” Id. (internal quotation marks
omitted). “Alternative remedial structures can take many
forms, including administrative, statutory, equitable, and
state law remedies.” Vega v. United States, 881 F.3d 1146,
1154 (9th Cir. 2018) (internal quotation marks omitted).
“[A]n alternative remedy need not be perfectly congruent
with Bivens or perfectly comprehensive, [but] it still must
be adequate.” Rodriguez v. Swartz, 899 F.3d 719, 739 (9th
Cir. 2018) (internal quotation marks omitted), vacated on
other grounds, 140 S. Ct. 1258.
The district court assumed without deciding that there
was no adequate alternative remedy that would preclude
a Bivens claim. On appeal, Agent Egbert suggests three
alternative remedies: “intentional-tort claims under the
Federal Tort Claims Act, see 28 U.S.C. § 2680(h), a
trespass claim against Agent Egbert, or injunctive relief.”
None of these suggested remedies defeats a Bivens action.
First, § 2680(h) of the FTCA, cited by Agent Egbert,
includes the so-called law enforcement proviso, which
allows damage suits against federal law enforcement
officials for “any claim arising . . . out of assault, battery,
false imprisonment, false arrest, abuse of process, or
malicious prosecution.” In Carlson v. Green, 446 U.S. 14

45a
(1980), the Supreme Court held that a Bivens action was
available against federal prison officials for the death of a
prisoner due to improper medical treatment in violation of
the Eighth Amendment. The Court specifically addressed
the relationship between Bivens and § 2680(h), holding
that the existence of a remedy under § 2680(h) does not
foreclose a Bivens action:
[W]hen Congress amended FTCA in 1974 to
create a cause of action against the United
States for intentional torts committed by
federal law enforcement officers, 28 U.S.C.
§ 2680(h), the congressional comments
accompanying that amendment made it
crystal clear that Congress views FTCA
and Bivens as parallel, complementary
causes of action. . . . In the absence of a
contrary expression from Congress,
§ 2680(h) thus contemplates that victims of
the kind of intentional wrongdoing alleged
in this complaint shall have an action under
FTCA against the United States as well as
a Bivens action against the individual
officials alleged to have infringed their
constitutional rights.
Id. at 19–20.
Moreover, in 1988, when Congress amended the FTCA
in the Westfall Act to provide that the FTCA remedy is
generally exclusive, it made an “explicit exception for
Bivens claims.” Hui v. Castaneda, 559 U.S. 799, 807
(2010). The Westfall Act provides that the exclusive
remedy for common law tort claims committed by federal
employees is against the United States, and that plaintiffs
are precluded from bringing suit against the employees in

46a
their individual capacity. See 28 U.S.C. § 2679(b)(1). But
the exclusiveness of the FTCA remedy was not extended
to constitutional torts such as Fourth Amendment
excessive force claims. See id. § 2679(b)(2)(A). A
contemporaneous House Report explained:
Since the Supreme Court’s decision in
Bivens, supra, the courts have identified
this type of tort as a more serious intrusion
of the rights of an individual that merits
special attention. Consequently, H.R. 4612
would not affect the ability of victims of
constitutional torts to seek personal redress
from Federal employees who allegedly
violate their Constitutional rights.
H.R. REP. NO. 100-700, at 6 (1988), as reprinted in 1988
U.S.C.C.A.N. 5945, 5950.
Second, a state-law trespass claim against Agent
Egbert in his individual capacity is barred by the Westfall
Act. See 28 U.S.C. § 2679(d)(1) (generally barring
individual capacity suits against a federal employee when
the employee is “acting within the scope of his office or
employment at the time of the incident out of which the
claim arose”). Further, Egbert’s entry onto the publicly
accessible driveway of Boule’s inn, undertaken as part of
his official duties, was almost certainly a privileged entry
under state law.
Finally, injunctive relief is an inadequate remedy, for
Boule is seeking damages for Agent Egbert’s completed
actions rather than protection against some future act.
Conclusion
We conclude that Bivens remedies are available in the

47a
circumstances of this case, where a United States citizen
claims that a border patrol agent violated the Fourth
Amendment by using excessive force while carrying out
official duties within the United States, and violated the
First Amendment by engaging in retaliation entirely
unconnected to his official duties. We reverse and remand
for further proceedings.
REVERSED and REMANDED.

48a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
ROBERT BOULE,
Plaintiff,
v.
ERIK EGBERT, et al.,

Case No. C17-0106 RSM
ORDER GRANTING
DEFENDANT’S MOTION
FOR SUMMARY
JUDGMENT

Defendants.
I. INTRODUCTION
This matter comes before the Court on Defendant’s
Motion for Summary Judgment. Dkts. #102 (filed under
seal) and #107. 1 Defendant seeks the dismissal of all
claims made against him as a matter of law. Id. Plaintiff
agrees that some claims may be dismissed, but argues that
disputes as to material questions of fact preclude
summary judgment on his First Amendment retaliation
claim. Dkts. #135 (filed under seal) and #140. For the
The Court previously resolved the portion of Defendant Egbert’s
motion regarding Plaintiff’s Fourth Amendment claim. Dkt. #154. In
addition, Defendant had moved for summary judgment on his AntiSLAPP counterclaim, but has since voluntarily dismissed that claim.
Dkt. #151. Thus, this Order addresses only the remaining portions of
the motion. In addition, the Court notes that a number of documents
in this matter have been filed under seal, with redacted versions
available publicly. To the extent possible, the Court will reference
only information available in the public documents.
1

49a
reasons set forth below, the Court disagrees with Plaintiff
and GRANTS Defendant’s motion.
II. BACKGROUND
Plaintiff initially filed this action on January 5, 2017.
Dkt. #1. He filed an Amended Complaint on September
6, 2017. Dkt. #22. The allegations arise from an
interaction with Defendant Erik Egbert, a United States
Customs and Border Protection (“CBP”) Officer, on
March 20, 2014. Id.
Plaintiff resides in a house immediately adjacent to the
U.S./Canada border. Dkt. #99 at ¶ 4 (filed under seal).
The house and its driveway are accessed by a one-lane
private dirt road that connects to a paved public street. Id.
at ¶ 5. Plaintiff and Defendant appear to agree that this
property is in an area known for cross-border smuggling
of people, drugs, illicit money and items of significance to
criminal organizations. Id. at ¶ 7 and Dkt. #108 at ¶ 10.
In addition to living in the home, Plaintiff operates a bed
and breakfast, which is known as the Smuggler’s Inn.
Dkts. #99 at ¶ 4 and #108 at ¶ 6.
Plaintiff has posted a sign at the intersection of the
private dirt lane that leads to his home and the paved
public street that reads:
Welcome to Smuggler’s Inn
Guests Only
Private Property
No Trespassing
Dkt. #99 at ¶ 16 and Ex. 5 thereto. There is conflicting
evidence in the record as to when that sign was posted.
Defendant Egbert asserts that the sign was not posted as
of March 20, 2014. Dkts. #130 at ¶ 23 and #133 at ¶ 23

50a
(filed under seal). A friend of Plaintiff’s states that the
sign has been posted for the last six or seven years. Dkt.
#148 at ¶ 11.
On March 20, 2014, Defendant Egbert drove down the
dirt lane into Plaintiff’s driveway. Dkts. #108 at ¶ 29 and
#130 at ¶ 24. A photo of Plaintiff’s property depicts the
drive way immediately adjacent to Plaintiff’s home,
surrounded on to sides by a tall wooden fence. Dkts. #98,
Ex. 4 and #108, Ex. A. Earlier that day, Defendant
Egbert had learned through conversation with Plaintiff of
a guest arriving from Turkey who had booked a room at
Smuggler’s Inn for that evening. Dkt. #130 at ¶ 30.
Plaintiff informed Agent Egbert that the guest had
arrived in New York via air from Turkey the night before,
and had then flown to SEA-TAC airport that day. Dkts.
#94 at 4-5 and #99 at ¶ 10. Two persons employed by
Plaintiff had driven to SEA-TAC airport in one of
Plaintiff’s vehicles to pick up the guest and transport him
to Smugglers Inn. Dkt. #99 at ¶ 10. As the vehicle
returned, driving down the lane and coming to a stop in
the Plaintiff’s driveway, Defendant Egbert followed in his
Border Patrol vehicle, entering Plaintiff’s driveway and
parking immediately behind the vehicle. Dkts. #108 at
¶ 29 and #130 at ¶ 24.
The driver exited while the guest remained seated in
the vehicle. According to Defendant Egbert, when he
approached the vehicle, the driver gave him permission to
talk to the guest, Mr. Kaya. Dkts. #108 at ¶ 32 and #130
at ¶ 24. However, Plaintiff, who was on a nearby porch,
told Defendant Egbert he was trespassing and asked him
to leave his property. Dkts. #99 at ¶ 10 and #108 at ¶¶ 3334. Defendant Egbert was “puzzled” by the behavior.
Dkt. #108 at ¶ 35.

51a
What happened next is not largely in dispute. The
parties agree that Agent Egbert did not leave when asked
to do so by Plaintiff. Dkt. #108 at ¶¶ 33-34. The parties
also agree that Plaintiff moved between Defendant and
the vehicle in which the passenger was seated. Id.
Defendant Egbert states that he informed Plaintiff he
(Egbert) wanted to speak with the guest about his
immigration status. Id. at ¶ 34. The parties dispute what
level of force, if any, was used for Agent Egbert to access
the vehicle, but the parties agree that Agent Egbert
opened the vehicle door and asked the guest about his
status in the country. Id. at ¶¶ 37-38. The parties agree
that Defendant Egbert confirmed that the guest was
legally in the country and then allowed Plaintiff to escort
the guest into his home. Id. at ¶¶ 40-41. The instant action
followed.
III. DISCUSSION
A. Legal Standard on Summary Judgment
Summary judgment is appropriate where “the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a); Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 247 (1986). In ruling on summary
judgment, a court does not weigh evidence to determine
the truth of the matter, but “only determine[s] whether
there is a genuine issue for trial.” Crane v. Conoco, Inc.,
41 F.3d 547, 549 (9th Cir. 1994) (citing Federal Deposit
Ins. Corp. v. O’Melveny & Meyers, 969 F.2d 744, 747 (9th
Cir. 1992)). Material facts are those which might affect
the outcome of the suit under governing law. Anderson,
477 U.S. at 248.

52a
The Court must draw all reasonable inferences in
favor of the non-moving party. See O’Melveny & Meyers,
969 F.2d at 747, rev’d on other grounds, 512 U.S. 79 (1994).
However, the nonmoving party must make a “sufficient
showing on an essential element of her case with respect
to which she has the burden of proof” to survive summary
judgment. Celotex Corp. v. Catrett, 477 U.S. 317, 323
(1986). Further, “[t]he mere existence of a scintilla of
evidence in support of the plaintiff’s position will be
insufficient; there must be evidence on which the jury
could reasonably find for the plaintiff.” Anderson, 477
U.S. at 251.
B. Plaintiff’s Fourteenth Amendment and State
Law Negligence Claims
As an initial matter, the Court addresses Plaintiff’s
federal Fourteenth Amendment claim and state law
negligence claim. Defendant Egbert has moved to dismiss
the claims on the basis that neither is cognizable against
him. Dkt. #107 at 19-20 and 21-23. Plaintiff responded
that he agreed those claims should be dismissed. Dkt.
#140 at 19. Accordingly, the Court DISMISSES those
claims in their entirety. 2 Because Plaintiff’s Fourth
Amendment claim and Defendants’ Anti-SLAPP
counterclaim have also been resolved, the only remaining
claim at issue is Plaintiff’s federal First Amendment
claim, which the Court now addresses.
C. Plaintiff’s First Amendment Claim
Plaintiff alleges in his Amended Complaint that as a
result of his complaint to Defendant Egbert’s superiors
regarding the incident in his driveway with his guest,
Plaintiff also agrees that any claim he made for attorney’s fees
should also be dismissed. Dkt. #140 at 19.
2

53a
Agent Egbert has retaliated against him. Dkt. #22 at
¶ 16. Plaintiff asserts that this retaliation has occurred in
the form of intimidation and slander to potential guests
causing them to refrain from staying at the bed and
breakfast, unsubstantiated complaints to the Internal
Revenue Service that Plaintiff had not properly accounted
for income received, intentionally parking marked
enforcement vehicles near the bed and breakfast for no
legitimate purpose in order to discourage business,
unjustified complaints to other regulatory agencies, and
detaining Mr. Boule’s employees for questioning without
legal justification. Dkt. #22 at ¶ 17. As a result, Plaintiff
asserts a Bivens 3 claim against Defendant Egbert on the
basis that Defendant’s actions violated his First
Amendment rights. Id. at ¶¶ 18 and 20. Defendant
Egbert moves for summary judgment dismissal of this
claim on the basis that allowing this claim to proceed
would be an unwarranted extension of Bivens into a new
context. Dkt. #107 at 12. For the reasons discussed
below, the Court agrees with Defendant.
In 1971 the United States Supreme Court decided
Bivens. In that case, the Court held that, even absent
statutory authorization, it would enforce a damages
remedy to compensate persons injured by federal officers
who violated the prohibition against unreasonable search
and seizures. Bivens, 403 U.S. at 397. The Court
acknowledged that the Fourth Amendment does not
provide for money damages “in so many words.” Id. at
396. However, the Court noted that Congress had not
foreclosed a damages remedy in “explicit” terms and that
no “special factors” suggested that the Judiciary should
Referring to Bivens v. Six Unknown Federal Narcotics Agents, 403
U.S. 388 (1971).

3

54a
“hesitat[e]” in the face of congressional silence. Id. at 39697. The Court held that it could authorize a remedy under
general principles of federal jurisdiction. See id. at 392
(citing Bell v. Hood, 327 U.S. 678, 684, 66 S. Ct. 773, 90 L.
Ed. 939 (1946)).
Since then, the U.S. Supreme Court has made clear
that expanding the Bivens remedy is now a “disfavored”
judicial activity, in recognition that it has “consistently
refused to extend Bivens to any new context or new
category of defendants.” Correctional Services Corp. v.
Malesko, 534 U. S. 61, 68, 122 S. Ct. 515, 151 L. Ed. 2d 456
(2001). The Court has recently set forth the proper test
for determining whether a case presents a new Bivens
context. Ziglar v. Abbasi, __ U.S. __, 137 S. Ct. 1843, 185960, 198 L. Ed.2d 290 (2017).
If the case is different in a meaningful way
from previous Bivens cases decided by this
Court, then the context is new. Without
endeavoring to create an exhaustive list of
differences that are meaningful enough to
make a given context a new one, some
examples might prove instructive. A case
might differ in a meaningful way because of
the rank of the officers involved; the
constitutional right at issue; the generality
or specificity of the official action; the extent
of judicial guidance as to how an officer
should respond to the problem or
emergency to be confronted; the statutory
or other legal mandate under which the
officer was operating; the risk of disruptive
intrusion by the Judiciary into the
functioning of other branches; or the

55a
presence of potential special factors that
previous Bivens cases did not consider.
Id. In determining whether a Bivens remedy should be
recognized in that case, the Court in Abbassi compared
the respondents’ claims to already recognized Bivens
claims and noted that a new context arises in cases where
“even a modest extension” exists. Id. at 1864.
The U.S. Supreme Court has only recognized a Bivens
remedy in the context of the Fourth, Fifth, and Eighth
Amendments. Abbasi, 137 S.Ct. at 1860 (noting that the
Supreme Court has approved three Bivens claims in the
past: “a claim against FBI agents for handcuffing a man
in his own home without a warrant; a claim against a
Congressman for firing his female secretary; and a claim
against prison officials for failure to treat an inmate’s
asthma.”) (internal citations omitted). Moreover, the
Supreme Court has never implied a Bivens action under
any clause of the First Amendment. See Reichle v.
Howards, 566 U.S. 658 n.4, 132 S. Ct. 2088, 182 L. Ed. 2d
985 (2012) (“We have never held that Bivens extends to
First Amendment claims.”). While the Ninth Circuit
previously has authorized Bivens claims based on the
First Amendment, see Gibson v. United States, 781 F.2d
1334 (9th Cir. 1986), Abbasi provides that the proper test
involves a consideration of Bivens cases decided by the
Supreme Court, not by the Courts of Appeals. Abbasi, 137
S.Ct. at 1859. Thus, prior Ninth Circuit decisions are not
controlling. Accordingly, the Court finds that Plaintiff’s
First Amendment claim clearly presents a new context in
Bivens. As a result, the Court is required to consider any
special factors counseling against extension of Bivens into
this area, including whether there is any alternative,
existing process for protecting Plaintiff’s interests.

56a
Plaintiff argues that special factors support the
extension of his claim “because the retaliation and
associated harms are directly connected to the Fourth
Amendment claims.” Dkt. #140 at 13. However, as the
Court previously determined for the reasons set forth by
Defendant, Plaintiff’s Bivens claims raise significant
separation-of-powers concerns by implicating the other
branches’ national-security policies. See Dkts. #143 at 45 and #154 at 10-11.
“The Supreme Court has never implied a
Bivens remedy in a case involving the
military, national security, or intelligence.”
Hernandez v. Mesa, 885 F.3d 881, 818–19
(5th Cir. 2018). This Court agrees that the
risk of personal liability would cause Border
Patrol agents to hesitate and second guess
their daily decisions about whether and how
to investigate suspicious activities near the
border, paralyzing their important bordersecurity mission. See Abbasi, 137 S. Ct. at
1861. Likewise, the Court agrees that
Congress is in the best position to evaluate
the costs and benefits of a new legal remedy,
particularly when it has already granted
Border Patrol broad authority to secure the
international border without providing a
damages remedy for claims arising in that
context. See Abbasi, 137 S. Ct. at 1857–58
and 1862.
Dkt. #154 at 10-11. Thus, the Court again finds that
Plaintiff attempts an impermissible Bivens claim in a new
context, and that special factors preclude such a claim.
The Court therefore declines to address Defendant’s

57a
alternative qualified immunity argument.
IV. CONCLUSION
Having reviewed Defendant’s motion for summary
judgment, the opposition thereto and reply in support
thereof, along with the supporting Declarations and
Exhibits and the remainder of the record, the Court
hereby finds and ORDERS:
1.

Defendant Egbert’s Motion for Summary
Judgment (Dkt. #102) is GRANTED and the
remainder of Plaintiff’s claims will be dismissed
against Defendant Egbert in their entirety.

2.

This matter is now CLOSED.

DATED this 24th day of August 2018.
/s/ Ricardo S. Martinez
RICARDO S. MARTINEZ
CHIEF UNITED STATES
DISTRICT JUDGE

58a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
ROBERT BOULE,
Plaintiff,
v.
ERIK EGBERT, et al.,
Defendants.

Case No. C17-0106RSM
ORDER DENYING
PLAINTIFF’S MOTION
FOR SUMMARY
JUDGMENT
REGARDING FOURTH
AMENDMENT
VIOLATION

I. INTRODUCTION
This matter comes before the Court on Plaintiff’s
Motion for Summary Judgment On Plaintiff’s Fourth
Amendment Claim. Dkt. #94. Plaintiff argues that there
is no genuine dispute as to any material fact regarding
liability, and therefore judgment in his favor is
appropriate with respect to his claim. Id. Defendant
Egbert asserts that summary judgment in his favor is
appropriate because Plaintiff impermissibly attempts to
extend his Bivens 1 claims to a new context, he was invited
onto the subject property, he was given permission to
conduct the search at issue, and he is protected by
Referring to Bivens v. Six Unknown Federal Narcotics Agents, 403
U.S. 388 (1971).

1

59a
qualified immunity in any event. Dkts. #102 2 and #131
(filed under seal). 3 For the reasons set forth below, the
Court disagrees with Plaintiff and DENIES his motion.
II. BACKGROUND
Plaintiff initially filed this action on January 5, 2017.
Dkt. #1. He filed an Amended Complaint on September
6, 2017. Dkt. #22. The allegations arise from an
interaction with Defendant Erik Egbert, a United States
Customs and Border Protection (“CBP”) Officer, on
March 20, 2014. Id.
Plaintiff resides in a house immediately adjacent to
the U.S./Canada border. Dkt. #99 at ¶ 4 (filed under
seal) 4. The house and its driveway are accessed by a onelane private dirt road that connects to a paved public
street. Id. at ¶ 5. Plaintiff and Defendant appear to agree
that this property is in area known for cross-border
smuggling of people, drugs, illicit money and items of
significance to criminal organizations. Id. at ¶ 7 and Dkt.
Although not styled as a cross-motion for summary judgment,
Defendant Egbert has moved for summary judgment on all claims.
The Court resolves the Fourth Amendment portion of Defendant
Egbert’s motion in this Order, and the remainder of his motion (Dkt.
#102) will be resolved by separate Order.
2

A number of documents in this matter have been filed under seal,
with redacted versions available publicly. To the extent possible, the
Court will reference only information available in the public
documents. For any citations to the sealed documents, the same
information is located at the same reference in the public version of
the document.
3

While the Declaration of Robert Boule cited here was filed under
seal, the information set forth in this factual background was
contained on the public docket in Plaintiff’s motion for summary
judgment (Dkt. #99).
4

60a
#108 at ¶ 10. In addition to living in the home, Plaintiff
operates a bed and breakfast, which is known as the
Smuggler’s Inn. Dkts. #99 at ¶ 4 and #108 at ¶ 6.
Plaintiff has posted a sign at the intersection of the
private dirt lane that leads to his home and the paved
public street that reads:
Welcome to Smuggler’s Inn
Guests Only
Private Property
No Trespassing
Dkt. #99 at ¶ 16 and Ex. 5 thereto. There is conflicting
evidence in the record as to when that sign was posted.
Defendant Egbert asserts that the sign was not posted as
of March 20, 2014. Dkts. #130 at ¶ 23 and #133 at ¶ 23
(filed under seal). A friend of Plaintiff’s states that the
sign has been posted for the last six or seven years. Dkt.
#148 at ¶ 11.
On March 20, 2014, Defendant Egbert drove down the
dirt lane into Plaintiff’s driveway. Dkts. #108 at ¶ 29 and
#130 at ¶ 24. A photo of Plaintiff’s property depicts the
drive way immediately adjacent to Plaintiff’s home,
surrounded on to sides by a tall wooden fence. Dkts. #98,
Ex. 4 and #108, Ex. A. Earlier that day, Defendant
Egbert had learned through conversation with Plaintiff of
a guest arriving from Turkey who had booked a room at
Smuggler’s Inn for that evening. Dkt. #130 at ¶ 30.
Plaintiff informed Agent Egbert that the guest had
arrived in New York via air from Turkey the night before,
and had then flown to SEA-TAC airport that day. Dkts.
#94 at 4-5 and #99 at ¶ 10. Two persons employed by
Plaintiff had driven to SEA-TAC airport in one of
Plaintiff’s vehicles to pick up the guest and transport him

61a
to Smugglers Inn. Dkt. #99 at ¶ 10. As the vehicle
returned, driving down the lane and coming to a stop in
the Plaintiff’s driveway, Defendant Egbert followed in his
Border Patrol vehicle, entering Plaintiff’s driveway and
parking immediately behind the vehicle. Dkts. #108 at
¶ 29 and #130 at ¶ 24.
The driver exited while the guest remained seated in
the vehicle. According to Defendant Egbert, when he
approached the vehicle, the driver gave him permission to
talk to the guest, Mr. Kaya. Dkts. #108 at ¶ 32 and #130
at ¶ 24. However, Plaintiff, who was on a nearby porch,
told Defendant Egbert he was trespassing and asked him
to leave his property. Dkts. #99 at ¶ 10 and #108 at ¶¶ 3334. Defendant Egbert was “puzzled” by the behavior.
Dkt. #108 at ¶ 35.
What happened next is not largely in dispute. The
parties agree that Agent Egbert did not leave when asked
to do so by Plaintiff. Dkt. #108 at ¶¶ 33-34. The parties
also agree that Plaintiff moved between Defendant and
the vehicle in which the passenger was seated. Id.
Defendant Egbert states that he informed Plaintiff he
(Egbert) wanted to speak with the guest about his
immigration status. Id. at ¶ 34. The parties dispute what
level of force, if any, was used for Agent Egbert to access
the vehicle, but the parties agree that Agent Egbert
opened the vehicle door and asked the guest about his
status in the country. Id. at ¶¶ 37-38. The parties agree
that Defendant Egbert confirmed that the guest was
legally in the country and then allowed Plaintiff to escort
the guest into his home. Id. at ¶¶ 40-41. The instant action
followed.

62a
III. DISCUSSION
A. Legal Standard on Summary Judgment
Summary judgment is appropriate where “the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a); Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 247 (1986). In ruling on summary
judgment, a court does not weigh evidence to determine
the truth of the matter, but “only determine[s] whether
there is a genuine issue for trial.” Crane v. Conoco, Inc.,
41 F.3d 547, 549 (9th Cir. 1994) (citing Federal Deposit
Ins. Corp. v. O’Melveny & Meyers, 969 F.2d 744, 747 (9th
Cir. 1992)). Material facts are those which might affect
the outcome of the suit under governing law. Anderson,
477 U.S. at 248.
The Court must draw all reasonable inferences in
favor of the non-moving party. See O’Melveny & Meyers,
969 F.2d at 747, rev’d on other grounds, 512 U.S. 79 (1994).
However, the nonmoving party must make a “sufficient
showing on an essential element of her case with respect
to which she has the burden of proof” to survive summary
judgment. Celotex Corp. v. Catrett, 477 U.S. 317, 323
(1986). Further, “[t]he mere existence of a scintilla of
evidence in support of the plaintiff’s position will be
insufficient; there must be evidence on which the jury
could reasonably find for the plaintiff.” Anderson, 477
U.S. at 251.
B. Plaintiff’s Fourth Amendment Claim
Plaintiff asks this Court to find as a matter of law that
Agent Egbert violated Plaintiff’s Fourth Amendment
Rights when he (Egbert) drove onto Plaintiff’s curtilage
and refused to leave when asked to do so by Plaintiff. Dkt.

63a
#94 at 8-10. Defendant Egbert responds that summary
judgment in his favor is appropriate because: 1) allowing
his claim to proceed would be an unwarranted extension
of Bivens into a new context; 2) he was authorized by
federal law to enter onto Plaintiff’s property, and the
driveway in front of Smuggler’s Inn is not an area where
Plaintiff had a reasonable expectation of privacy for
purposes of the Fourth Amendment; 3) Plaintiff does not
have standing to assert a claim relating to the alleged
detention or search of another person; and 4) he is entitled
to qualified immunity. Dkt. #128. For the reasons
discussed below, the Court agrees that allowing Plaintiff’s
claim to proceed would be an unwarranted extension of
Bivens into a new context.
1. Curtilage
As an initial matter, the Court examines whether the
driveway outside Plaintiff’s home/inn is protected
curtilage.
The Fourth Amendment’s protection of
curtilage has long been black letter law. “[W]hen it comes
to the Fourth Amendment, the home is first among
equals.” Florida v. Jardines, 569 U. S. 1, 6, 133 S. Ct.
1409, 185 L. Ed. 2d 495 (2013). “At the Amendment’s ‘very
core’ stands ‘the right of a man to retreat into his own
home and there be free from unreasonable governmental
intrusion.’” Ibid. (quoting Silverman v. United States,
365 U.S. 505, 511, 81 S. Ct. 679, 5 L. Ed. 2d 734 (1961)). To
give full practical effect to that right, the U.S. Supreme
Court considers curtilage – “the area ‘immediately
surrounding and associated with the home’” – to be “‘part
of the home itself for Fourth Amendment purposes.’”
Jardines, 569 U. S. at 6 (quoting Oliver v. United States,
466 U.S. 170, 180, 104 S. Ct. 1735, 80 L. Ed. 2d 214 (1984)).
“The protection afforded the curtilage is essentially a

64a
protection of families and personal privacy in an area
intimately linked to the home, both physically and
psychologically, where privacy expectations are most
heightened.” California v. Ciraolo, 476 U.S. 207, 212-213,
106 S. Ct. 1809, 90 L. Ed. 2d 210 (1986). When a law
enforcement officer physically intrudes on the curtilage to
gather evidence, a search within the meaning of the
Fourth Amendment has occurred. Jardines, 569 U. S. at
11. Such conduct thus is presumptively unreasonable
absent a warrant.
Defining the extent of the “curtilage,” depends on four
factors: “the proximity of the area claimed to be curtilage
to the home, whether the area is included within an
enclosure surrounding the home, the nature of the uses to
which the area is put, and the steps taken by the resident
to protect the area from observation by people passing
by.” Id. at 301. The Supreme Court has noted that, “for
most homes, the boundaries of the curtilage will be clearly
marked: and the conception defining the curtilage – as the
area around the home to which the activity of home life
extends – is a familiar one easily understood from our
daily experience.” Oliver v. U.S., 466 U.S. 170, 182 n.12,
104 S. Ct. 1735, 80 L. Ed. 2d 214 (1984).
In this case, the Court agrees with Plaintiff that the
driveway in front of his house/inn is curtilage. According
to photographs in the record, the driveway runs in a ushape, off of 99th St. SW, in front of the house/inn and
alongside part of the front lawn past the front perimeter
of the house. Dkt. #98, Exs. 3 and 4. The top portion of
the driveway that sits behind the front perimeter of the
house is enclosed on two sides by a white, wooden fence
that appears to be the height of a car. Id., Ex. 4. A visitor
endeavoring to reach the front door of the house/inn

65a
would have to enter the driveway and park, before
proceeding up a set of steps leading to the front porch. Id.
When Defendant Egbert followed the vehicle and
encountered the person sitting inside, it was parked in the
driveway near the front steps to the house/inn.
The “‘conception defining the curtilage’ is . . . familiar
enough that it is ‘easily understood from our daily
experience.’” Jardines, 569 U.S. at 7 (quoting Oliver, 466
U.S. at 182, fn. 12). Just like the front porch, side garden,
or area “outside the front window,” Jardines, 569 U.S. at
6, the driveway enclosure where Defendant Egbert
stopped the vehicle and confronted the guest inside
constitutes “an area adjacent to the home and ‘to which
the activity of home life extends,’” and so is properly
considered curtilage. Id. at 7 (quoting Oliver, 466 U.S. at
182, fn. 12). In physically intruding on the curtilage of
Plaintiff’s home/inn to stop and search the vehicle,
Defendant Egbert not only invaded Plaintiff’s Fourth
Amendment interest in the item searched, i.e., the vehicle,
but also invaded Plaintiff’s Fourth Amendment interest in
the curtilage of his home/inn. Thus, the question now
before this Court is whether there is an exception that
justifies the invasion of the curtilage.
2. Bivens
Defendant Egbert first argues that this lawsuit is not
recognized in the Bivens context, and therefore should be
dismissed. Dkt. #102 at 10-14 (filed under seal).
Specifically, Defendant argues that Plaintiff’s claims
present a new Bivens context because the Supreme Court
has not previously recognized an action against Border
Patrol agents conducting immigration checks, an action
arising out of the use of force to overcome a bystander’s
attempt to impede an investigation, or an action for

66a
alleged retaliation, and therefore the claims are nothing
like the Bivens actions the Supreme Court has previously
approved. Id.
In 1971 the United States Supreme Court decided
Bivens. In that case, the Court held that, even absent
statutory authorization, it would enforce a damages
remedy to compensate persons injured by federal officers
who violated the prohibition against unreasonable search
and seizures. Bivens, 403 U.S. at 397. The Court
acknowledged that the Fourth Amendment does not
provide for money damages “in so many words.” Id. at
396. However, the Court noted that Congress had not
foreclosed a damages remedy in “explicit” terms and that
no “special factors” suggested that the Judiciary should
“hesitat[e]” in the face of congressional silence. Id. at 39697. The Court held that it could authorize a remedy under
general principles of federal jurisdiction. See id. at 392
(citing Bell v. Hood, 327 U.S. 678, 684, 66 S. Ct. 773, 90 L.
Ed. 939 (1946)).
Since then, the U.S. Supreme Court has made clear
that expanding the Bivens remedy is now a “disfavored”
judicial activity, in recognition that it has “consistently
refused to extend Bivens to any new context or new
category of defendants.” Correctional Services Corp. v.
Malesko, 534 U. S. 61, 68, 122 S. Ct. 515, 151 L. Ed. 2d 456
(2001). The Court has recently set forth the proper test
for determining whether a case presents a new Bivens
context. Ziglar v. Abbasi, __ U.S. __, 137 S. Ct. 1843,
1859-60, 198 L. Ed.2d 290 (2017).
If the case is different in a meaningful way
from previous Bivens cases decided by this
Court, then the context is new. Without
endeavoring to create an exhaustive list of

67a
differences that are meaningful enough to
make a given context a new one, some
examples might prove instructive. A case
might differ in a meaningful way because of
the rank of the officers involved; the
constitutional right at issue; the generality
or specificity of the official action; the extent
of judicial guidance as to how an officer
should respond to the problem or
emergency to be confronted; the statutory
or other legal mandate under which the
officer was operating; the risk of disruptive
intrusion by the Judiciary into the
functioning of other branches; or the
presence of potential special factors that
previous Bivens cases did not consider.
Id. In determining whether a Bivens remedy should be
recognized in that case, the Court in Abbassi compared
the respondents’ claims to already recognized Bivens
claims and noted that a new context arises in cases where
“even a modest extension” exists. Id. at 1864.
In the instant matter, the alleged conduct has the
recognizable substance of Fourth Amendment violations.
Nevertheless, Defendant Egbert is a U.S. Border Patrol
Agent, rather than a traditional law enforcement officer,
federal workplace supervisor, or prison official, and was
purporting to operate under a different “statutory or
other legal mandate” than the officials outlined in the
“traditional” Bivens claims referenced in Abbasi. For
these reasons, the Court assumes that this case presents
a “modest extension” in a “new context” for the
application of a Bivens remedy and must determine
whether there are special factors counseling against

68a
extension of Bivens into this area. Ziglar, 137 S.Ct. at
1857. The Supreme Court’s precedents “now make clear
that a Bivens remedy will not be available if there are
‘special factors counselling hesitation in the absence of
affirmative action by Congress.’” Id. Thus, “the inquiry
must concentrate on whether the Judiciary is well suited,
absent congressional action or instruction, to consider and
weigh the costs and benefits of allowing a damages action
to proceed.” Id. at 1857-58. This requires the Court to
assess the impact on governmental operations systemwide, including the burdens on government employees
who are sued personally, as well as the projected costs and
consequences to the government itself. Id. at 1858. In
addition, “if there is an alternative remedial structure
present in a certain case, that alone may limit the power
of the Judiciary to infer a new Bivens cause of action.” Id.
Even assuming that Plaintiff had no other remedy
than a Bivens claim for the alleged Fourth Amendment
violation, this Court cannot extend Bivens if a “special
factor” counsels hesitation. See Wilkie v. Robbins, 551
U.S. 537, 554, 562, 127 S. Ct. 2588, 168 L. Ed. 2d 389
(2007). Thus, the Court must carefully weigh all the
reasons Defendant Egbert has offered for denying a
Bivens cause of action. Here, for the reasons set forth by
Defendant, the Court agrees that Plaintiff’s claims raise
significant separation-of-powers concerns by implicating
the other branches’ national-security policies. See Dkt.
#143 at 4-5. “The Supreme Court has never implied a
Bivens remedy in a case involving the military, national
security, or intelligence.” Hernandez, 885 F.3d at 818–19.
This Court agrees that the risk of personal liability would
cause Border Patrol agents to hesitate and second guess
their daily decisions about whether and how to investigate

69a
suspicious activities near the border, paralyzing their
important border-security mission. See Abbasi, 137 S. Ct.
at 1861. Likewise, the Court agrees that Congress is in
the best position to evaluate the costs and benefits of a
new legal remedy, particularly when it has already
granted Border Patrol broad authority to secure the
international border without providing a damages remedy
for claims arising in that context. See Abbasi, 137 S. Ct.
at 1857–58 and 1862. For all of these reasons, the Court
finds that Plaintiff attempts an impermissible Bivens
claim in a new context, and special factors preclude such
a claim. The Court therefore declines to address
Defendant’s
alternative
arguments
regarding
Defendant’s authorization under federal law, standing or
qualified immunity.
IV. CONCLUSION
Having reviewed Plaintiff’s and Defendant’s motions
for summary judgment, the oppositions thereto and
replies in support thereof, along with the supporting
Declarations and Exhibits and the remainder of the
record, the Court hereby finds and ORDERS:
1.

Plaintiff’s Motion for Summary Judgment on
Plaintiff’s Fourth Amendment Claim (Dkt. #94) is
DENIED.

2.

Defendant Egbert’s Motion for Summary
Judgment on Plaintiff’s Fourth Amendment
Claim is GRANTED and the claim will be
dismissed against Defendant Egbert in its
entirety.

3.

The remainder of Defendant Egbert’s motion for
summary judgment (Dkt. #102) remains noted on

70a
the Court’s calendar and will be resolved by
separate Order.
DATED this 21 day of August, 2018.
/s/ Ricardo S. Martinez
RICARDO S. MARTINEZ
CHIEF UNITED STATES
DISTRICT JUDGE

